                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230




February 26, 2010


MEMORANDUM FOR:               Dr. Robert M. Groves
                              Director
                             ~c~nJ\s~ur~au
FROM:                         )oddJ.Zi*sd

SUBJECT:                      Recommendations from 2010 Census: Quarterly Report to
                              Congress, February 2010 (010-19791-3)

This memorandum transmits recommendations resulting from our third quarterly review of 20 10
Census activities, those occurring between October and December 2009. Our third quarterly
report, a copy of which we include as an attachment to this memorandum, was issued February
16,2010. This new report provides an update to Census schedule, cost, and risk management
activities discussed in our second quarterly report, issued December 18,2009. We conducted this
work pursuant to the explanatory statement accompanying the Supplemental Appropriations Act
of 2008, which required the Census Bureau to submit to the Senate and House Committees on
Appropriations a detailed decennial plan and assessment of associated risks, and further required
OIG to provide quarterly repOlts on the bureau's progress against this plan.

During this review we assessed the progress of Paper-based Operations Control System
(PBOCS) development and testing, and found a number of serious problems: staff are working at
capacity yet continue to fall behind schedule; critical software errors are still being found; system
performance is still lagging; and testing continues to be compressed, risking system capabilities
and performance in the field (see page 2 of attachment). With respect to 2010 Census costs, our
analysis of travel costs for Address Canvassing revealed a number of inefficiencies that Census
managers should be aware of for future operations. Specifically, we found that employees (1)
were reimbursed at a higher mileage reimbursement rate than allowed, (2) drove a relatively high
number of miles per hour worked, and (3) were paid for training but completed little or no work
(see page 12 of attachment).


Recommendations

Given the challenges involving PBOCS and the lack of time remaining in the schedule, Census
should realign PBOCS development and testing, placing greater emphasis on minimizing the
impact of the system's limitations during operations. We recommend that you ensure that the
following actions are taken:
•     senior executives with the authority to set priorities-such as reallocating resources to where
      they are most needed, resolving conflicting priorities, and making major changes to the
      decennial schedule or plan--closely monitor PBOCS activities and act to expeditiously
      reduce operational risk;
•     streamline development and testing by further reducing PBOCS capabilities to the essentials
      needed for the most important enumeration operations;
•     focus on developing standardized procedural workarounds for PBOCS capabilities that
      cannot be implemented to support operations; and
•     enhance technical support staff and procedures to expeditiously resolve problems in the field.

To improve cost containment efforts for future operations, we also recommend that you ensure
that Census Bureau management develops effective internal controls over wage, travel, and
training costs and scrupulously follows these controls.

Given the challenges with PBOCS development and testing and the short time available before
the start of major operations, please advise us by March 15,2010, of the actions you are taking
or propose to take in response to our recommendations. If you have any questions, please call me
at (202) 482-4661 or Ron Prevost, Assistant Inspector General for Economic and Statistical
Program Assessment, at (202) 482-3052.

Thank you for the courtesies extended to my staff during this review.

Attachment

cc:      Rebecca M. Blank, Under Secretary for Economic Affairs
         Nancy Potok, Deputy Under Secretary for Economic Affairs
         Thomas L. Mesenbourg, Jr., Deputy Director, U.S. Census Bureau
         Andrew Moxam, Comptroller, U.S. Census Bureau
         Arnold Jackson, Associate Director, Decennial Census Programs, U.S. Census Bureau
         Frank Vitrano, Chief, Decennial Management Division, U.S. Census Bureau
         Pam White, External Liaison Branch Chief, Decennial Management Division, U.S.
           Census Bureau
         Adam Miller, Audit Liaison, U.S. Census Bureau




                                                   2
